HHS/OIG-Audit--"Report on Advance Payment System Used By the Indian Health Service to Advance Cash to Contractors and Grantees, (A-06-90-00001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Advance Payment System Used By the Indian Health Service to Advance
Cash to Contractors and Grantees," (A-06-90-00001)
June 8, 1992
Complete
Text of Report is available in PDF format (415 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses the audit of the Advanced Payment System (APS) used
by the Indian Health Service (IHS) to advance cash to its contractors and grantees
(contractor). Our review identified that APS controls did not ensure that cash
advances were limited to the immediate needs of IHS contractors. As a result, contractors
routinely received excess cash. We also found that contractors transferred IHS
cash from designated bank accounts until it was needed to pay for expenses incurred
under IHS contracts. As a result, IHS could not accurately account for its cash
advances by auditing the bank accounts and could not be assured that IHS cash was
only used to fund IHS activities and programs. Therefore, an important safeguard
is being bypassed.